           FEDERAL HOUSING FINANCE AGENCY
             OFFICE OF INSPECTOR GENERAL



      Clifton Gunderson LLP’s Independent Audit of the
              Federal Housing Finance Agency’s
         Privacy Program and Implementation - 2011




Audit Report: AUD-2011-003              Dated: September 30, 2011
                   Clifton Gunderson LLP’s Independent Audit of the Federal Housing
                      Finance Agency’s Privacy Program and Implementation - 2011
Why FHFA-OIG Contracted for Audit                                          What Clifton Gunderson LLP Found (See Appendix A of this
                                                                           Report)
Section 522 of the Consolidated Appropriations Act of 2005
(Section 522), as amended, requires that each agency designate a           While FHFA’s privacy program had a number of strengths, such as a
Chief Privacy Officer and implement comprehensive privacy and              policy on the use and protection of PII, FHFA did not meet all of the key
data protection procedures governing the agency’s collection, use,         requirements of Section 522 for developing and implementing
sharing, disclosure, transfer, storage, and security of information in     comprehensive privacy and data protection procedures. Specifically, the
an identifiable form relating to agency employees and the public.          audit identified that FHFA had not:
Additionally, Section 522 requires the Inspector General of each
agency to periodically review the agency’s implementation of the             • Completed a required privacy program baseline report
requirements of Section 522 including the agency’s privacy                     summarizing FHFA’s use of PII and establishing the control
program.                                                                       framework for privacy protection. The report was completed and
                                                                               submitted to FHFA-OIG after the conclusion of the audit field
A comprehensive privacy program helps to ensure that risks related             work in August 2011;
to the collection, storage, transmission, and destruction of
personally identifiable information (PII)—such as an individual’s            • Designed a job-specific privacy training program to ensure FHFA
name, date of birth, and social security number—are mitigated. A               employees and contractors are familiar with privacy protection
strong privacy program also provides a framework for the agency to             roles and responsibilities;
consider the implications of business decisions made as they pertain
                                                                             • Established a process for timely publication of required System of
to PII. A privacy program should also help maintain public trust and
                                                                               Record Notices that describe the existence and character of the
confidence in an organization, protect the reputation of an
                                                                               system of records before operating systems containing PII;
organization, and protect against legal liability for an organization by
providing the necessary safeguards to minimize the risk of                   • Prepared Privacy Impact Assessments of all systems that contain PII
unintended disclosure of PII.                                                  and documented assessments made of agency proposed rules to
The Federal Housing Finance Agency (FHFA or Agency) Office of                  help ensure protection of PII was adequately considered in the
Inspector General (FHFA-OIG) contracted with Clifton Gunderson                 systems development and rulemaking processes; and
LLP (CG) to conduct a performance audit to fulfill its Section 522           • Implemented a process for FHFA’s Privacy Office to monitor
responsibilities for a periodic review of FHFA’s privacy program and           information systems containing PII after they are placed in
its implementation. The objective of this performance audit was to             production.
assess FHFA’s privacy program and its implementation, including
compliance with the statutory and regulatory requirements                  Addressing these control deficiencies in privacy and data protection
concerning the protection of PII. The specific sub-objectives were         procedures will strengthen FHFA's privacy program, further protect
to determine whether FHFA implemented comprehensive privacy                individuals from the adverse impact of breaches, and contribute to
and data protection procedures as required by Section 522 and              ongoing efforts to achieve reasonable assurance of adequate protection
accurately reported on its use of information in an identifiable form      of PII.
(also referred to as PII), along with its privacy and data protection      Several of the recommendations made in this report relate to privacy
policies and procedures.                                                   practices that have not been incorporated into the Agency’s policies and
What FHFA-OIG Recommends                                                   procedures. Absent formal policies and procedures, FHFA cannot
                                                                           ensure consistent privacy program implementation across all Agency
FHFA-OIG adopted CG’s findings and nine recommendations to                 operations and protection of the confidentiality, integrity, and
FHFA to assist in strengthening its privacy program.                       availability of privacy information consistent with statutory and
In response to FHFA-OIG’s findings and recommendations, FHFA               regulatory requirements.
provided written comments, dated September 26, 2011. The
Agency agreed with the recommendations. The complete text of
the written comments can be found in Appendix B of this report.



Audit Report: AUD-2011-003                                                                                    Dated: September 30, 2011
TABLE OF CONTENTS
TABLE OF CONTENTS ..................................................................................................................... iii

ABBREVIATIONS ............................................................................................................................. iv

PREFACE .......................................................................................................................................... v

APPENDIX A .................................................................................................................................... vi

       Clifton Gunderson LLP’s Final Audit Report Entitled, Independent Audit of the Federal Housing
       Finance Agency’s Privacy Program and Implementation - 2011

APPENDIX B ................................................................................................................................... vii

       FHFA’s Comments to FHFA-OIG’s Draft Report

APPENDIX C .................................................................................................................................... xi

       FHFA-OIG’s Response to FHFA’s Comments

APPENDIX D ................................................................................................................................... xii

       Summary of Management’s Comments on the Recommendations

ADDITIONAL INFORMATION AND COPIES ..................................................................................... xv




         Federal Housing Finance Agency Office of Inspector General • AUD-2011-003 • September 30, 2011
                                                                        iii
ABBREVIATIONS
CG ........................................................................................................................ Clifton Gunderson
CPO ................................................................................................................. Chief Privacy Officer
CISO .......................................................................................... Chief Information Security Officer
Fannie Mae......................................................................... Federal National Mortgage Association
FHFA ........................................................................................... Federal Housing Finance Agency
FHFA-OIG ...................................... Federal Housing Finance Agency Office of Inspector General
FHLBanks ...............................................................................................Federal Home Loan Banks
Freddie Mac .................................................................. Federal Home Loan Mortgage Corporation
FIPS................................................................................ Federal Information Processing Standards
FISMA ...................................................... Federal Information Security Management Act of 2002
GAGAS ......................................................... Generally Accepted Government Auditing Standards
HERA.......................................................................Housing and Economic Recovery Act of 2008
IT ................................................................................................................ Information Technology
NIST ....................................................................... National Institute of Standards and Technology
OMB .......................................................................................... Office of Management and Budget
PII.............................................................................................. Personally Identifiable Information
PIA ........................................................................................................ Privacy Impact Assessment
PTA ....................................................................................................... Privacy Threshold Analysis
Section 522...................................................................... Consolidated Appropriations Act of 2005
SSN ............................................................................................................. Social Security Number
SORN ....................................................................................................... System of Records Notice




         Federal Housing Finance Agency Office of Inspector General • AUD-2011-003 • September 30, 2011
                                                                     iv
                                    Federal Housing Finance Agency

                                       Office of Inspector General

                                              Washington, DC




                                             PREFACE
FHFA-OIG was established by the Housing and Economic Reform Act of 2008 (HERA), 1 which
amended the Inspector General Act of 1978. 2 FHFA-OIG is authorized to conduct audits,
investigations, and other activities of the programs and operations of FHFA; to recommend
policies that promote economy and efficiency in the administration of such programs and
operations; and to prevent and detect fraud and abuse in them. This is one in a series of audits,
evaluations, and special reports published as part of FHFA-OIG’s oversight responsibilities to
promote economy, effectiveness, and efficiency in the administration of FHFA’s programs.

The objective of this performance audit was to assess FHFA’s privacy program and its
implementation, including compliance with the statutory and regulatory requirements concerning
the protection of PII. FHFA-OIG contracted with CG to conduct this statutorily required audit.
CG’s audit report is included in Appendix A of this report.

CG’s audit report makes nine recommendations to FHFA to assist in strengthening its privacy
program. FHFA-OIG adopts these recommendations and believes they will help the Agency
achieve more economical, effective, and efficient operations. FHFA-OIG appreciates the
assistance of all those who contributed to the audit.

This report has been distributed to Congress, OMB, and others and will be posted on FHFA-
OIG’s website, www.fhfaoig.gov/.




Russell A. Rau
Deputy Inspector General for Audits




1
    Public Law No. 110-289.
2
    Public Law No. 95-452.

         Federal Housing Finance Agency Office of Inspector General • AUD-2011-003 • September 30, 2011
                                                       v
APPENDIX A
Clifton Gunderson LLP’s Independent Audit of the Federal Housing Finance Agency’s Privacy
Program and Implementation – 2011, pages 1 – 34.




     Federal Housing Finance Agency Office of Inspector General • AUD-2011-003 • September 30, 2011
                                                   vi
                                                                  t 

A1 
                           Clifton Gunderson LLP’s Independent

                       Audit of the Federal Housing Finance Agency’s

                        Privacy Program and Implementation - 2011



                                         Prepared for the
                                 Federal Housing Finance Agency
                                   Office of Inspector General

                                      September 30, 2011




4250 N. Fairfax Drive                                                            
Suite 1020 
Arlington, Virginia 22203 
tel:  571­227­9500 
fax: 571­227­9552 
www.cliftoncpa.com 
                                                     Table of Contents

Executive Summary ................................................................................................................... 3
Background................................................................................................................................ 6
   Section 522 of the Consolidated Appropriations Act, 2005 ..................................................... 6
   The Privacy Act of 1974 ......................................................................................................... 7
   E-Government Act of 2002 ..................................................................................................... 8
   OMB Memorandum M-03-22 .................................................................................................. 8
   OMB Memorandum M-07-16 .................................................................................................. 9
   NIST Special Publication 800-122 .........................................................................................10
   FHFA Privacy Office ..............................................................................................................10
   FHFA Privacy Monitoring and Compliance ............................................................................10
   FHFA Privacy Awareness and Training .................................................................................12
Results of Audit.........................................................................................................................14
   Overview ...............................................................................................................................14
   1.	 FHFA Needed to File the Baseline Report with the FHFA-OIG in a Timely Manner ..........16
   2.	 FHFA Needs to Strengthen the Privacy Training Program................................................17
   3.	 FHFA Needs to Ensure System of Record Notices Are Published Prior to Systems Being

       Placed in Operation..........................................................................................................20
   4.	 FHFA Needs to Prepare Privacy Impact Assessments of All Systems that Contain PII and

       Document Assessments Made of Agency Proposed Rules ..............................................22
   5.	 FHFA Needs to Document, Disseminate, and Implement a Process to Monitor Information

       Systems Containing PII After Being Placed in Production ................................................24
Appendix I – Objective, Scope, and Methodology .....................................................................26
Appendix II – Summary of Key Criteria Tested..........................................................................32
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


Executive Summary
September 30, 2011

Honorable Steve A. Linick
Inspector General
Federal Housing Finance Agency
1625 Eye Street, NW
Washington, DC 20006

Dear Mr. Linick:

Section 522 of the Consolidated Appropriations Act of 2005, (Division H, Transportation,
Treasury, Independent Agencies, and General Government Appropriations Act, 2005)
(Section 522), as amended requires that each agency designate a Chief Privacy Officer
(CPO) and implement comprehensive privacy and data protection procedures governing
the agency’s collection, use, sharing, disclosure, transfer, storage, and security of
information in an identifiable form relating to agency employees and the public. Section
522 also requires the Inspector General of each agency to periodically conduct a review
of the agency’s implementation of the requirements of Section 522 including the
agency’s privacy program. The Federal Housing Finance Agency (FHFA) Office of the
Inspector General (FHFA-OIG) contracted with Clifton Gunderson (CG) to conduct a
performance audit of FHFA’s privacy program and its implementation. We are pleased
to provide the Fiscal Year (FY) 2011 CG Independent Audit Report, detailing the results
of our review of the FHFA’s privacy program.

The objective of this performance audit was to assess FHFA’s privacy program and its
implementation, including compliance with the statutory and regulatory requirements
concerning the protection of personally identifiable information (PII).1 The specific sub-
objectives were to determine whether FHFA implemented comprehensive privacy and
data protection procedures as required by Section 522 and accurately reported on its
use of information in an identifiable form, along with its privacy and data protection
policies and procedures. CG’s audit included a review of FHFA’s privacy related
policies and procedures, the structure and positioning of the Privacy Office’s function
within the agency, the monitoring and compliance efforts of the Privacy Office, and
FHFA’s network and website for privacy vulnerabilities. CG also reviewed the agency’s
privacy related training program. These areas were assessed accordingly within the
context of the requirements and recommendations of Section 522, Section 208 of the E-
Government Act of 2002, the Privacy Act of 1974, OMB memoranda M-03-22 and M-07-




1
  The terms “personally identifiable information” and “information in an identifiable form” are used
interchangeably in privacy-related policies to describe information such as an individual’s name, date of
birth,
117 and social security number. For purposes of this report, we use the term PII.



                                                     3
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


16, and NIST Special Publication (SP) 800-122. Our audit was performed in
accordance with Generally Accepted Government Auditing Standards (GAGAS).

While FHFA’s privacy program had a number of strengths, such as a policy on the use
and protection of PII, FHFA did not meet all of the key requirements of Section 522 for
developing and implementing comprehensive privacy and data protection procedures.
Specifically, the audit identified that FHFA had not:

    •	 Completed a required privacy program baseline report summarizing FHFA’s use
       of PII;2
    •	 Designed the job-specific privacy training program to ensure FHFA employees
       and contractors are familiar with privacy protection roles and responsibilities;
    •	 Established a process for timely publication of required System of Record
       Notices that describe the existence and character of the system of records before
       operating systems containing PII;
    •	 Prepared Privacy Impact Assessments of all systems that contain PII and
       documented assessments made of agency proposed rules to help ensure
       protection of PII was adequately considered in the systems development and
       rulemaking processes; and
    •	 Implemented a process for FHFA’s Privacy Office to monitor information systems
       containing PII after they are placed in production.

Further, several of the recommendations made in this report relate to privacy practices
that have not been incorporated into the agency’s policies and procedures. Absent
formal policies and procedures, FHFA cannot ensure consistent program
implementation. In addition, there may be potential civil and criminal ramifications
associated with noncompliance with laws if agency employees do not understand their
responsibilities under the various privacy laws. FHFA is vulnerable to an increased risk
of a breach of sensitive data, which may result in personal harm, loss of public trust,
legal liability, or increased costs of responding to a breach. Addressing these control
deficiencies in privacy and data protection procedures will strengthen FHFA’s privacy
program and contribute to ongoing efforts to achieve reasonable assurance of adequate
protection of PII.

CG does not consider the findings in this report to be a significant deficiency as defined
under the Federal Information Security Management Act of 2002 (FISMA).3 However,
CG concluded that collectively, the deficiencies are significant in the context of the audit
objective as defined for performance audits under GAGAS.

FHFA’s privacy program had a number of strengths, including but not limited to the
following:


2
  On August 17, 2011, after completion of audit field work, FHFA provided the baseline report. FHFA-OIG
will evaluate this report as part of future audits.
3
  See page 30 in this report for the definition of significant deficiency under FISMA and deficiency in
internal control that is significant in the context of the audit objective according to GAGAS.


                                                  4
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


   •	 The policy related to the use and protection of PII is documented and provides
      clear direction and guidance on the use of PII;
   •	 The Breach Notification Policy is documented and roles and responsibilities are
      defined;
   •	 The Privacy Office performs periodic walk-throughs of agency offices and work
      areas to monitor the physical protection of PII;
   •	 The Privacy Office provides initial new hire and annual refresher privacy
      awareness training to all employees and contractors; and
   •	 The Privacy Office oversees the performance of a Privacy Threshold Analysis
      (PTA) for all new information systems.

This report makes nine recommendations to assist FHFA in strengthening its privacy
program.

This performance audit did not constitute an audit of financial statements in accordance
with GAGAS. CG was not engaged to, and did not, render an opinion on the FHFA’s
internal controls over financial reporting or financial management systems.
Furthermore, the projection of any conclusions, based on our findings, to future periods
is subject to the risk that controls may become inadequate because of changes in
conditions, or because compliance with controls may deteriorate.


Sincerely,


a1 
Clifton Gunderson LLP




                                                 5
CG’s Independent Audit of FHFA’s Privacy Program and Implementation ‐ 2011 


Background
On July 30, 2008, FHFA was established by the Housing and Economic and Recovery
Act of 2008 (HERA), Public Law No. 110-289. Specifically, HERA abolished two existing
Federal agencies, the Office of Federal Housing Enterprise Oversight and the Federal
Housing Finance Board, and in their place created FHFA to regulate the Federal
National Mortgage Association (Fannie Mae), the Federal Home Loan Mortgage
Corporation (Freddie Mac), the 12 Federal Home Loan Banks (FHLBanks), and the
Office of Finance. FHFA is an independent Federal agency, with a Director appointed
by the President and confirmed by the U.S. Senate. Its mission is to provide effective
supervision, regulation, and housing mission oversight of Fannie Mae, Freddie Mac,
and the FHLBanks. FHFA is a non-appropriated, non-apportioned agency that draws its
financial resources from assessments on Fannie Mae, Freddie Mac, and the 12
FHLBanks. The Agency has a $201 million budget for fiscal year 2011 and a staff of
598.4
	
Section	522	of	the	Consolidated	Appropriations	Act,	2005	
 
Public Law No. 108-447, Division H, Section 522 of the Transportation, Treasury,
Independent Agencies, and General Government Appropriations Act of 2005
(commonly referred to as the Consolidated Appropriations Act of 2005) (Section 522),
as amended, 5 states that each agency shall have a Chief Privacy Officer (CPO) to
assume primary responsibility for privacy and data protection policy. According to
Section 522, each agency shall prepare a written report of its use of information in an
identifiable form,6 along with its privacy and data protection policies and procedures and
record it with the Inspector General of the agency to serve as a benchmark for the
agency. Examples of information in identifiable form, also referred to as personally
identifiable information (PII) include name, address, social security number (SSN) or
other identifying number or code, telephone number, email address, etc. Each report
shall be signed by the agency privacy officer to verify that the agency intends to comply
with the procedures in the report.

In addition, Section 522 requires the Inspector General of each agency to periodically
conduct a review of the agency’s implementation of the requirements of the section.
The Inspector General may contract with an independent third party to conduct the
review, to:

 Evaluate the agency’s use of information in identifiable form;
 Evaluate the privacy and data protection procedures of the agency; and
                                                            
4
  The Appendix, Other Independent Agencies, Budget of the United States Government, Fiscal Year
2012, http://www.whitehouse.gov/sites/default/files/omb/budget/fy2012/assets/oia.pdf, pp. 1239-1241.
5
  Section 522 as amended by Section 742 of the Consolidated Appropriations Act, 2008 (Public Law No.
110-161).
6
  The definition of “identifiable form” is consistent with the E-Government Act of 2002 (Public Law No.
101-347), and means any representation of information that permits the identity of an individual to whom
the information applies to be reasonably inferred by either direct of indirect means.

                                                                                                           6 
                                                                
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


•	 Recommend strategies and specific steps to improve privacy and data protection
   management.
Per the requirements above, the independent third party review must also include:

•	 A review of the agency’s technology, practices, and procedures with regard to the
   collection, use, sharing, disclosure, transfer, and storage of information in identifiable
   form;
•	 A review of the agency’s stated privacy and data protection procedures with regard
   to the collection, use, sharing, disclosure, transfer, and security of personal
   information in identifiable form relating to agency employees and the public;
•	 A detailed analysis of agency intranet, network, and websites for privacy
   vulnerabilities, including:
   o	 Noncompliance with stated practices, procedures, and policies; and
   o	 Risks for inadvertent release of information in an identifiable form from the
       website of the agency; and
•	 A review of agency compliance with Section 522.

The Privacy Act of 1974

The Privacy Act of 1974, 5 U.S.C. § 552a, as amended, requires agencies to collect only
such information about an individual as is relevant and necessary to accomplish a purpose of
the agency required to be accomplished by statute or executive order of the President.
Agencies are required to protect this information from any anticipated threats or hazards to
their security or integrity which could result in substantial harm, embarrassment,
inconvenience, or unfairness to any individual on whom the information is maintained, and
must not disclose this information except under certain circumstances.

The information collected is considered a record under the Privacy Act if it is an item,
collection, or grouping of information about an individual that is maintained by an agency,
including, but not limited to, his education, financial transactions, medical history, and criminal
or employment history and that contains his name or the identifying number, symbol, or other
identifying particular assigned to the individual, such as a finger or voice print or a
photograph.

When an agency has a group of any records under its control from which information is
retrieved by the name of the individual or by some identifying number, symbol, or other
identifying particular assigned to the individual, the agency has a system of records. The
Privacy Act requires that a public notice, commonly referred to as a System of Records
Notice (SORN), be published in the Federal Register that describes the existence and
character of the system of records. In addition, the Privacy Act requires SORNs to include:

   •	   The name and location of the system;
   •	   The categories of individuals on whom records are maintained in the system;
   •	   The categories of records maintained in the system;
   •	   Each routine use of the records contained in the system, including the categories of
        users and the purpose of such use;


                                                 7
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


   •	 The policies and practices of the agency regarding storage, retrievability, access
      controls, retention, and disposal of the records;
   •	 The title and business address of the agency official who is responsible for the system
      of records;
   •	 The agency procedures whereby an individual can be notified at his request if the
      system of records contains a record pertaining to him;
   •	 The agency procedures whereby an individual can be notified at his request how he
      can gain access to any record pertaining to him contained in the system of records,
      and how he can contest its content; and
   •	 The categories of sources of records in the system.

E-Government Act of 2002

Section 208 of the E-Government Act of 2002 (Public Law No. 107-347) requires agencies to
(1) conduct Privacy Impact Assessments (PIA) of information technology and collections and,
in general, make PIAs publicly available; (2) post privacy policies on agency Web sites used
by the public; and (3) translate privacy policies into a machine-readable format.

OMB Memorandum M-03-22

OMB Memorandum M-03-22, OMB Guidance for Implementing the Privacy Provisions
of the E-Government Act of 2002, addresses privacy protections when members of the
public interact with the Federal government and directs agencies to conduct reviews of
how information about individuals is handled within their agency when they use
information technology to collect new information, or when agencies develop or buy new
information technology (IT) systems to handle collections of PII. OMB Memorandum M-
03-22 defines a PIA as an analysis of how information is handled: (1) to ensure handling
conforms to applicable legal, regulatory, and policy requirements regarding privacy, (2)
to determine the risks and effects of collecting, maintaining and disseminating
information in identifiable form in an electronic information system, and (3) to examine
and evaluate protections and alternative processes for handling information to mitigate
potential privacy risks. PIAs must analyze and describe the following:

   •	 What information is to be collected (e.g., nature and source);
   •	 Why the information is being collected (e.g., to determine eligibility);
   •	 Intended use of the information (e.g., to verify existing data);
   •	 With whom the information will be shared (e.g., another agency for a specified
      programmatic purpose);
   •	 What opportunities individuals have to decline to provide information (i.e., where
      providing information is voluntary) or to consent to particular uses of the
      information (other than required or authorized uses), and how individuals can
      grant consent;
   •	 How the information will be secured (e.g., administrative and technological
      controls); and
   •	 Whether a system of records is being created under the Privacy Act, 5 U.S.C.
      552a.


                                                 8
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�



PIAs must identify what choices the agency made regarding an IT system or collection
of information as a result of performing the PIA. PIAs must also be approved by a
“reviewing official” and be made publicly available to the extent that they do not contain
classified or sensitive information or raise security concerns.

In addition to conducting PIAs, OMB Memorandum M-03-22 also requires agencies to
post privacy policies on agency websites used by the public, translate privacy policies
into a standardized machine-readable format, and report annually to OMB on
compliance with Section 208 of the E-Government Act of 2002.

OMB Memorandum M-07-16

OMB Memorandum M-07-16, Safeguarding Against and Responding to the Breach of
Personally Identifiable Information (OMB-M-07-16), requires agencies to develop and
implement a breach notification policy and provides the framework within which
agencies must develop this notification policy while ensuring proper safeguards are in
place to protect the information. This memorandum also requires agencies to
periodically review their holdings of PII and ensure that they are accurate, relevant,
timely, and complete, and reduce them to the minimum necessary for the proper
performance of agency functions. OMB Memorandum M-07-16 also requires the
agency to review the use of SSN and establish a plan to eliminate their unnecessary
collection and use. There are also five security requirements within OMB Memorandum
M-07-16:

    •	 Encryption. Encrypt, using only National Institute of Standards and Technology
       (NIST)7 certified cryptographic modules, all data on mobile computers/devices
       carrying agency data unless the data is determined not to be sensitive, in writing,
       by your Deputy Secretary or a senior-level individual he/she may designate in
       writing;
    •	 Control Remote Access. Allow remote access only with two-factor authentication
       where one of the factors is provided by a device separate from the computer
       gaining access;
    •	 Time-Out Function. Use a “time-out” function for remote access and mobile
       devices requiring user re-authentication after thirty minutes of inactivity;
    •	 Log and Verify. Log all computer-readable data extracts from databases holding
       sensitive information and verify each extract, including whether sensitive data
       has been erased within 90 days or its use is still required; and
    •	 Ensure Understanding of Responsibilities. Ensure all individuals with authorized
       access to personally identifiable information and their supervisors sign at least
       annually a document clearly describing their responsibilities.



7
 NIST, an agency within the Department of Commerce, is responsible for developing standards and
guidelines, including minimum requirements, for providing adequate information security for all agency
operations and assets.


                                                    9
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�



NIST Special Publication 800-122

NIST Special Publication (SP) 800-122, Guide to Protecting the Confidentiality of
Personally Identifiable Information (PII), provides guidelines for implementing a risk-
based approach to protecting PII in the context of information security. It recommends
a process that involves identifying the PII that an agency holds, classifying the PII by
confidentiality impact level, and providing safeguards based on the confidentiality
impact level. It also provides recommendations for developing an incident response
plan.

FHFA Privacy Office

The Privacy Office at FHFA is made up of two employees, the Privacy Officer and the
Chief Privacy Officer (CPO) who has also been designated as the Senior Agency
Official for Privacy and is responsible for ensuring compliance with federal laws,
regulations, and policies related to information privacy. The Privacy Office has a policy
in place for the protection of PII, Use and Protection of Personally Identifiable
Information, as well as a policy for breach notification in the event of a privacy related
incident, Breach Notification Policy and Plan. The agency has also compiled the
Privacy Threshold Analysis and Privacy Impact Assessment Guide for use when
performing Privacy Threshold Analyses (PTA) and PIAs described below.

FHFA Privacy Monitoring and Compliance

In addition to requiring a PTA for each new system as it moves through the system
development life cycle, FHFA’s policies also require a PTA if a modification to a system
affects how the system uses, collects, or stores information. A PTA is a screening tool
designed to assist the CPO in determining what privacy requirements apply to an
information system. There are two parts to the PTA, the first is a questionnaire that is
completed by the system owner that describes the nature and volume of information
contained in the system. The second part, which is completed by the CPO, provides for
the analysis of the system and the required next steps. A PTA collects the following
information from the system owner in order to assist the CPO in determining what
privacy requirements apply to a system:

   •	 Name of the system and system owners;
   •	 Status of the system, why the PTA is being performed;
   •	 Does the system contain data fields that collect, maintain, or disseminate
      information on an individual(s)? If so, document the PII the system contains;
   •	 Legal authority that allows FHFA to operate the system and collect the
      information;
   •	 Name of SORN that covers the system, or notification that one does not exist;
   •	 Whether the information in the system can be linked with other information to
      identify an individual;
   •	 Nature of individuals the system contains information about;


                                                10
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


   •	 Whether the system collects data from 10 or more members of the public during
      a calendar year;
   •	 The source of the information collected, and if from an individual is a Privacy Act
      Statement provided to the individual;
   •	 Whether the information is retrieved by name of an individual or some identifying
      number, symbol, or other identifying particular assigned to the individual; and
   •	 Whether a Certification and Accreditation has been performed, and if so, the
      Federal Information Processing Standards (FIPS) Publication (PUB) 199,
      Standards for Security Categorization of Federal Information and Information
      Systems, category (discussed below).

Based on the information provided by the system owners, the CPO performs an
analysis of the system to determine whether:

    •	 The system is a PII system;
    •	 A new SORN is required for the system; and
    •	 A Privacy Act Statement is required.

As part of the analysis, the CPO assigns a FIPS PUB 199 risk category to the
information contained in the system to the extent it pertains to privacy. FIPS PUB 199
establishes security categories for information and information systems based on the
potential impact on the agency should certain events occur which threaten the
information and information systems needed by the agency. FISMA defines three
security objectives for information and information systems:

Confidentiality - A loss of confidentiality is the unauthorized disclosure of information.

Integrity - A loss of integrity is the unauthorized modification or destruction of
information.

Availability - A loss of availability is the disruption of access to or use of information or
an information system.

The possible categories of potential impact are:

Low - The loss of confidentiality, integrity, or availability could be expected to have a
limited adverse effect on organizational operations, organizational assets, or individuals.
FHFA PTAs use the wording, “The PII elements cannot be used to identify an individual
or is normally publicly available.”

Moderate - The loss of confidentiality, integrity, or availability could be expected to have
a serious adverse effect on organizational operations, organizational assets, or
individuals. FHFA PTAs use the wording, “The PII elements are not normally publicly
available, but do not pose a higher risk of subsequent identity theft or personal harm to
the individual if released.”



                                                11
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


High - The loss of confidentiality, integrity, or availability could be expected to have a
severe or catastrophic adverse effect on organizational operations, organizational
assets, or individuals. FHFA PTAs use the wording, “The PII elements are sensitive PII
that pose a higher risk of subsequent identity theft or personal harm to the individual if
released.”

Based upon the analysis performed by the CPO as part of a PTA, a decision is made as
to whether a PIA will be performed. 8 The degree of analysis within the PIA is
dependent on the importance of the system and the FIPS PUB 199 category assigned
to the privacy related data in the PTA. OMB Memorandum M-03-22 defines a major
system as a system or project that requires special management attention because of
its:

      1.	   Importance to the agency mission;
      2.	   High development, operating, and maintenance costs;
      3.	   High risk;
      4.	   High return; and
      5.	   Significant role in the administration of an agency’s programs, finances, property
            or other resources.

According to OMB Memorandum M-03-22, a PIA conducted for a major system should
reflect extensive analyses of the:

      1.	   Consequences of collection and flow of information;
      2.	   Alternatives to collection and handling as designed;
      3.	   Appropriate measure to mitigate risks identified for each alternative; and
      4.	   Rationale for the final design choice or business process.

In addition, OMB Memorandum M-03-22 states that the depth and content of the PIA
should be appropriate for the nature of the information to be collected and the size and
complexity of the IT system.

The PIA documents how the information collected within a system is used and the
safeguards in place to protect that information. The system owner completes the PIA
with input and approval from the system developer, the Chief Information Security
Officer, the Chief Information Officer, and the CPO.

The Privacy Office also performs periodic examinations of the FHFA offices to assess
compliance with privacy policies.

FHFA Privacy Awareness and Training

FHFA’s Privacy Office provides initial new hire and annual refresher privacy training to
all employees and contractors. The training is delivered through the assigned FHFA
computer and is administered in conjunction with other IT related training. If an
8
    See the section above title OMB Memorandum M-03-22 for a discussion of PIAs.


                                                   12
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


employee/contractor has not completed the required privacy training within a
reasonable period of time, the CPO will have that employee’s/contractor’s access to
FHFA’s information systems turned off until the training is completed.




                                                13
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


Results of Audit

Overview

Section 522 requires an agency to designate a CPO and implement comprehensive
privacy and data protection procedures governing the agency’s collection, use, sharing,
disclosure, transfer, storage, and security of information in an identifiable form relating
to agency employees and the public.

A comprehensive privacy program helps to ensure that risks related to the collection,
storage, transmission and destruction of PII are mitigated. A strong privacy program
also provides a framework for the agency to consider the implications of business
decisions made as they pertain to PII. A privacy program should also help maintain
public trust and confidence in an organization, protect the reputation of an organization,
and protect against legal liability for an organization by providing the necessary
safeguards to minimize the risk of unintended disclosure of PII.

CG’s audit included a review of FHFA’s privacy related policies and procedures, the
structure and positioning of the Privacy Office’s function within the agency, the
monitoring and compliance efforts of the Privacy Office, and FHFA’s network and
website for privacy vulnerabilities. CG also reviewed the agency’s privacy related
training program. These areas were assessed within the context of the requirements
and recommendations of Section 522, Section 208 of the E-Government Act of 2002,
the Privacy Act of 1974, OMB memoranda M-03-22 and M-07-16, and NIST SP 800-
122.

While FHFA’s privacy program had a number of strengths, such as a policy on the use
and protection of PII, FHFA did not meet all of the key requirements of Section 522 for
developing and implementing comprehensive privacy and data protection procedures.
Specifically, the audit identified that FHFA had not:

      •	 Completed a required privacy program baseline report summarizing FHFA’s use
         of PII;9
      •	 Designed the job-specific privacy training program to ensure FHFA employees
         and contractors are familiar with privacy protection roles and responsibilities;
      •	 Established a process for timely publication of required SORNs that describe the
         existence and character of the system of records before operating systems
         containing PII;
      •	 Prepared PIAs of all systems that contain PII and documented assessments
         made of agency proposed rules to help ensure protection of PII was adequately
         considered in the systems development and rulemaking processes; and
      •	 Implemented a process for FHFA’s Privacy Office to monitor information systems
         containing PII after they are placed in production.


9
    Id. at page 4.


                                                14
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


Further, several of the recommendations made in this report relate to privacy practices
that have not been incorporated into the Agency’s policies and procedures. Absent
formalized practices, FHFA cannot ensure consistent program implementation. In
addition, there may be potential civil and criminal legal ramifications associated with
noncompliance with laws if agency employees do not understand their responsibilities
under the various privacy laws. FHFA is vulnerable to an increased risk of a breach of
sensitive data, which may result in personal harm, loss of public trust, legal liability, or
increased costs of responding to a breach. Addressing these control deficiencies in
privacy and data protection procedures will strengthen FHFA’s privacy program and
contribute to ongoing efforts to achieve reasonable assurance of adequate protection of
information in an identifiable form.

CG does not consider the five findings stated in this report to be a significant deficiency
as defined under FISMA.10 However, CG concluded that collectively, the deficiencies
are significant in the context of the audit objective as defined for performance audits
under GAGAS.

Appendix II (page 32) of this report summarizes the results of testing performed of key
criteria selected for evaluation associated with FHFA’s privacy program and its
implementation. Our detailed findings are discussed on pages 16-25.




10
     See page 30 in this report for the definition of significant deficiency under FISMA.


                                                        15
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


Finding 1. FHFA Needed to File the Baseline Report with the FHFA-OIG in a
Timely Manner

FHFA did not file a baseline report required by Section 522 with FHFA-OIG in a timely
manner. The Inspector General was sworn in to office on October 12, 2010, and the
report was not filed until August 17, 2011. The report was filed after the completion of
audit field work and was not subject to review by CG.

Section 522 states:

       (a) PRIVACY OFFICER- Each agency shall have a Chief Privacy Officer to
       assume primary responsibility for privacy and data protection policy, including:

       (c) RECORDING- Each agency shall prepare a written report of its use of
       information in an identifiable form, along with its privacy and data protection
       policies and procedures and record it with the Inspector General of the agency to
       serve as a benchmark for the agency. Each report shall be signed by the agency
       privacy officer to verify that the agency intends to comply with the procedures in
       the report. By signing the report the privacy officer also verifies that the agency is
       only using information in identifiable form as detailed in the report.

FHFA-OIG was established at FHFA in October 2010. The baseline report was not filed
by the Agency due to the time required to gather the information to prepare the report.
Without a baseline report, FHFA lacks assurance of compliance with established
privacy policies.

The baseline report serves as a useful benchmark for the agency’s privacy program.
Without proper documentation of the privacy policies and procedures within the FHFA
baseline report, users may not be aware of FHFA’s policies and procedures relating to
the privacy and data protection of PII, and will not be able to measure actual privacy
and data protection practices against the agency’s recorded privacy and data protection
policies. As a result, employees may rely on undocumented practices that may not be in
accordance with the appropriate legal or regulatory guidance and employees may
mishandle PII exposing the agency to a breach or compromise of PII.

With submission of the baseline report by the Agency, this finding contains no
recommendations, and no further action is necessary. However, FHFA-OIG will
evaluate the baseline report as part of future audits.




                                                16
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


Finding 2. FHFA Needs to Strengthen the Privacy Training Program

Although recommended by NIST SP 800-122, FHFA has not documented a privacy training
plan and implementation. Also, FHFA has not identified employees that would benefit
from additional job-specific or role based training based on increased responsibilities
related to PII, and a specific role based training program has not been developed or
implemented. OMB M-07-16 requires privacy related training to be job-specific and
commensurate with employee’s responsibilities. In addition, NIST SP 800-122
specifies role-based training be provided depending on the roles and functions
involving PII.

A job-specific privacy training program is important for FHFA to implement as violations
of the Privacy Act and OMB Memorandum M-03-22 with regard to SORNs and PIAs
were noted. For example, two systems of records were in place prior to the publication
of their respective SORNs, and PIAs were not completed for four systems containing PII
(refer to findings 3 and 4, pages 20 and 22, respectively).

OMB Memorandum M-07-16 states:

       Communications and training related to privacy and security must be job-specific
       and commensurate with the employee’s responsibilities.

       Additional or advanced training should also be provided commensurate with
       increased responsibilities or change in duties.

       Fairness requires that managers, supervisors and employees be informed and
       trained regarding their respective responsibilities relative to safeguarding
       personally identifiable information and the consequences and accountability for
       violation of these responsibilities. Consequences should be commensurate with
       level of responsibility and type of personally identifiable information involved.
       Supervisors also must be reminded of their responsibility to instruct, train and
       supervise employees on safeguarding personally identifiable information.
       Agencies should develop and implement these policies in accordance with the
       agency's respective existing authorities.

NIST SP 800-122 states:

       An organization should have a training plan and implementation approach, and
       an organization‘s leadership should communicate the seriousness of protecting
       PII to its staff. Organizational policy should define roles and responsibilities for
       training; training prerequisites for receiving access to PII; and training periodicity
       and refresher training requirements. To reduce the possibility that PII will be
       accessed, used, or disclosed inappropriately, all individuals that have been
       granted access to PII should receive appropriate training and, where applicable,
       specific role-based training. Depending on the roles and functions involving PII,
       important topics to address may include:


                                                17
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�



       •   The definition of PII
       •   Applicable privacy laws, regulations, and policies
       •   Restrictions on data collection, storage, and use of PII
       •   Roles and responsibilities for using and protecting PII
       •   Appropriate disposal of PII
       •   Sanctions for misuse of PII
       •   Recognition of a security or privacy incident involving PII
       •   Retention schedules for PII
       •   Roles and responsibilities in responding to PII-related incidents and reporting.

Education through training develops a common body of knowledge that reflects all of
the various specialties and aspects of PII protection. It is used to develop privacy
professionals who are able to implement privacy programs that enable their
organizations to proactively respond to privacy challenges

Although FHFA provides new hire and annual refresher training related to privacy, the
training program does not specifically address the need for additional or advanced
training for those individuals with increased responsibilities related to PII. FHFA has not
completed an analysis of the roles within the agency with increased levels of
responsibilities related to PII.

FHFA has documented privacy policies and procedures in its Use and Protection of
Personally Identifiable Information Policy. However, a privacy training plan and
implementation approach has not been prepared.

Training programs reinforce the execution of the privacy policies and decrease the risk
of privacy incidents. Additional or advanced training should be provided to those
individuals with increased privacy management responsibilities such as Privacy Office
employees and managers who handle PII to remind them to keep in mind privacy
controls when making decisions involving the collection, use, sharing, retention,
disclosure, and destruction of PII. Without role based training, individuals may not be
fully aware of privacy protection requirements specific to the data and records they
process.

Privacy training is designed to reinforce employees’ understanding of privacy risk
management processes such as restrictions on data collection, storage, and use of PII.
While FHFA may have effective practices in place based on the institutional knowledge
of the CPO, absence of a documented training plan and implementation approach may
lead to inadequate or inconsistent training and a lack of understanding of practices for
adequate protection of PII. Ultimately, FHFA is vulnerable to an increased risk of a
breach of sensitive data, which may result in personal harm, loss of public trust, legal
liability, or increased costs of responding to a breach.




                                                18
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�



We recommend that FHFA’s CPO:

Recommendation #1. Document, disseminate, and implement a privacy training plan
and implementation approach.

Recommendation #2. Identify those employees that would benefit from additional job
specific or role-based privacy training based on increased responsibilities related to PII.

Recommendation #3. Develop and implement targeted role based training for
employees whose job functions require additional job specific or role based privacy
training.




                                                19
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


Finding 3. FHFA Needs to Ensure System of Record Notices are Published
Prior to Systems Being Placed in Operation.

Of the 18 systems of records reviewed, FHFA had two systems, “mail, contact, phone and
other lists;” and “freedom of information and privacy act records,” in place prior to the
publication of their respective system-specific SORNs. The Agency believed that all records
within the systems were in fact part of one system. However, upon further review it was
determined that the systems were in fact distinct and warranted separate SORNs. While
FHFA had published a general SORN to cover these types of records, not publishing more
specific SORNs prior to creating new systems of records could lead to a violation of the
Privacy Act. These systems are end user computer and paper based systems that contain
PII.

The Privacy Act of 1974 states:

       A public notice is required to be published:

       For new systems, before the system of records becomes operational; i.e., before any
       information about individuals is collected,

The “mail, contact, phone and other lists” system was created by the Office of
Communications (OC) to track inquiries made by the public. The OC was not aware of
their responsibility to prepare a SORN prior to creating the system.

The “freedom of information and privacy act records” system was created by the
previous Freedom of Information Act (FOIA) officer who concluded that it did not
constitute a system of records under the Privacy Act. When the CPO became the FOIA
Officer, he determined that it was in fact a system of record and published the required
SORN.

Since these systems are end user computer and paper based systems, they were not
subject to the formal certification and accreditation process that would have identified
the need for a SORN. Without a process in place for identification and monitoring of the
creation of end user computer and paper based systems, the Agency and the CPO may
not be aware that such systems exist.

A SORN is completed during the Requirements Analysis Phase and the Design Phase
of the system development life cycle process by the respective project manager. This
notice describes the system of record and gives the public an opportunity to provide
their views and comments in line with the Privacy Act provisions. The lack of publishing
a SORN prior to a system being operational may lead to individuals not understanding
the privacy risks associated with the system, what information is being collected about
them, or their rights related to review of the information collected. There are also
potential civil and criminal legal ramifications related to operating and maintaining
systems of records without publishing the required notices.




                                                20
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


We recommend that FHFA’s CPO:

Recommendation #4. Develop and implement additional training for employees about
SORN requirements, focusing on the inadvertent creation of systems of records. This
training should stress the legal ramifications potentially associated with creating
systems of records prior to publishing a SORN.

Recommendation #5. Strengthen its privacy related procedures to ensure SORNs are
completed prior to systems becoming operational.




                                                21
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


Finding 4. FHFA Needs to Prepare Privacy Impact Assessments of all Systems
that Contain PII and Document Assessments Made of Agency Proposed Rules

Although required by OMB Memorandum M-03-22, Privacy Impact Assessments (PIA) were
not completed by system owners for four systems containing PII. The systems are: Trakker,
Affordable Housing Program/Community Investment Cash Advance (AHP/CICA), Content
Management Interface (CMI), and Office of Conservatorship Operations’ (OCO) Status
Report Tracking System. OMB Memorandum M-03-22 allows for a simplified PIA utilizing
checklists or templates to be performed, but one must still be completed. In addition, the
Privacy Office has not documented assessments required by section 522 of proposed
rules of the Agency as it relates to privacy of information in an identifiable form.
OMB Memorandum M-03-22 states:

       Privacy Impact Assessment (PIA)- is an analysis of how information is handled:
       (i) to ensure handling conforms to applicable legal, regulatory, and policy
       requirements regarding privacy, (ii) to determine the risks and effects of
       collecting, maintaining and disseminating information in identifiable form in an
       electronic information system, and (iii) to examine and evaluate protections and
       alternative processes for handling information to mitigate potential privacy risks.

       The E-Government Act of 2002 (Public Law No. 107-347) requires agencies to
       conduct a PIA before:

       Developing or procuring IT systems or projects that collect, maintain or
       disseminate information in identifiable form from or about members of the public.

       The depth and content of the PIA should be appropriate for the nature of the
       information to be collected and the size and complexity of the IT system.

       Agencies may use a standardized approach (e.g., checklist or template) for PIAs
       involving simple systems containing routine information and involving limited use
       and access.

Section 522 states:

       (a) PRIVACY OFFICER- Each agency shall have a Chief Privacy Officer to
       assume primary responsibility for privacy and data protection policy, including:

       (5) conducting a privacy impact assessment of proposed rules of the Department
       on the privacy of information in an identifiable form, including the type of
       personally identifiable information collected and the number of people affected;

According to the CPO, he made the decision that a PIA need not be performed by
system owners for the four systems because they only contained one or two pieces of
PII, usually a name or email address. In addition, the CPO asserted that the reviews of
Agency proposed rules were conducted on an informal basis between the CPO and


                                                22
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


those developing the proposed rules; however, the assessments were not documented
and therefore, could not be substantiated.

Without completing a PIA on a system with PII, the Agency may face a potential loss of
control, compromise, unauthorized disclosure, unauthorized acquisition, or unauthorized
access of PII, which may result in personal harm, loss of public trust, legal liability, or
increased costs of responding to a breach of PII. In addition, if a privacy impact
assessment is not performed on proposed rules, FHFA may collect new information or
change the way that information is used that would increase the privacy risks to the
Agency.

We recommend that FHFA’s CPO:

Recommendation #6. Require the system owners of the following systems with PII to
prepare a PIA utilizing a template or checklist: Trakker, AHP/CICA, CMI, and OCO Status
Report Tracking System.

Recommendation #7. Document the privacy impact assessments conducted for
proposed rules of the Agency as required by Section 522.

Recommendation #8. Establish a process for the completion of template or checklist
based PIAs and modify policies and procedures as necessary.




                                                23
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


Finding 5. FHFA Needs to Document, Disseminate, and Implement a
Process to Monitor Information Systems Containing PII After being
Placed in Production
FHFA’s Privacy Office has not identified and documented the privacy related security
controls that must be monitored for information systems containing PII that have been
placed in the production environment, and how the results of that monitoring should be
communicated to the Privacy Office on an ongoing basis.

Section 522 states:

       (a) PRIVACY OFFICER- Each agency shall have a Chief Privacy Officer to
       assume primary responsibility for privacy and data protection policy, including:

       (2) assuring that technologies used to collect, use, store, and disclose
       information in identifiable form allow for continuous auditing of compliance with
       stated privacy policies and practices governing the collection, use and
       distribution of information in the operation of the program;

       (7) ensuring that the Department protects information in an identifiable form and
       information systems from unauthorized access, use, disclosure, disruption,
       modification, or destruction;

Federal Housing Finance Agency Program Management Procedures in line with NIST
SP 800-53 Rev. 3 states:

       Continuous Monitoring - (CA-7)

       By regularly reviewing the effectiveness of security controls within FHFA
       information systems, Program Offices/System Owners are able to quickly detect
       and respond to new vulnerabilities.

Although system tools are implemented for logging, there is no process in place for
CPO review of the logs, and no documented process for monitoring other privacy
related security controls, therefore monitoring is not fully implemented.

Business processes and systems in production from time to time go through changes
that may introduce privacy risks. Changes may significantly alter system information
and may require additional controls to protect any PII they contain. Lack of monitoring of
information systems containing PII after they are placed in production may lead to a
compromise or breach of PII especially when conditions of systems change, i.e., a system
is modified or used for a purpose other than what it was originally designed for.




                                                24
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


We recommend that that FHFA’s CPO, in coordination with the Chief Information
Security Officer (CISO):

Recommendation #9. Ensure privacy risk is continuously assessed on systems in
production, including when functionalities change or when a major update is done. The
CPO should document, disseminate (to system owners and the CISO), and implement
policies and procedures for continuous monitoring of information systems containing PII
after they are placed in production. The policies and procedures at a minimum should:

   a.	 Document the privacy related security controls that are to be monitored to protect
       information in an identifiable form and information systems from unauthorized
       access, use, disclosure, disruption, modification, or destruction;
   b.	 Determine the frequency of the privacy related security controls monitoring and
       reporting process to the Privacy Office;
   c.	 Document review of reports generated by the monitoring of the privacy related
       security controls noted in item b. above; and
   d.	 If necessary, take action on results of monitoring and document results of action
       taken.




                                                25
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


Appendix I – Objective, Scope, and Methodology

Objective

The objective of this performance audit was to assess FHFA’s privacy program and its
implementation, including compliance with the statutory and regulatory requirements
concerning the protection of PII. The specific sub-objectives were to determine whether
FHFA implemented comprehensive privacy and data protection procedures as required
by the Section 522, as amended and accurately reported on its use of information in an
identifiable form, along with its privacy and data protection policies and procedures.

Scope

In assessing FHFA’s compliance with the requirements of Section 522, CG evaluated
the following areas:

   •	 FHFA’s Privacy Policies and Procedures,
   •	 FHFA’s Privacy Office,
   •	 FHFA’s Privacy Monitoring and Compliance (included evaluation of PIAs and
      SORNs),
   •	 Privacy vulnerability analysis of FHFA’s network and website, and
   •	 Privacy Awareness and Training.

   During the audit, CG performed a review of the following documentation provided by
   the FHFA:

   •	   Use and Protection of Personally Identifiable Information Policy,
   •	   Breach Notification Policy and Plan,
   •	   Privacy Threshold Analysis and Privacy Impact Assessment Guide,
   •	   Privacy Office Organizational Chart,
   •	   Chief Privacy Officer Designation,
   •	   Draft SORN Guidance Document,
   •	   Draft Baseline Report,
   •	   FY 2011 Privacy Plan to Reduce PII and SSNs,
   •	   Inventory of IT Systems with Personally Identifiable Information, and
   •	   New Hire Training Program.

Methodology

1.	 Review of FHFA’s Privacy Policies and Procedures

According to Section 522, each agency is required to establish and implement
comprehensive privacy and data protection procedures governing the agency’s
collection, use, sharing, disclosure, transfer, storage, and security of information in an
identifiable form relating to the agency employees and the public. Such procedures


                                                26
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


shall be consistent with legal and regulatory guidance, including OMB regulations, the
Privacy Act of 1974, and Section 208 of the E-Government Act of 2002.

CG performed a thorough review of FHFA’s policy documentation to assess adherence
to Section 522. CG reviewed FHFA’s baseline privacy documentation. In assessing the
privacy policies and procedures, CG determined compliance with federal guidelines
related to privacy and protection of personal identifiable information.

2.	 Review of FHFA’s Privacy Office

Section 522 also requires that each Agency designate a CPO to assume primary
responsibility for privacy and data protection policy. CG performed a review of FHFA’s
Privacy Office to determine whether the office effectively and efficiently administered
FHFA’s privacy program. In assessing the Privacy Office, CG reviewed the agency’s
organization charts/structure and interviewed key privacy officials to determine whether
the Agency has identified roles and responsibilities for key privacy officials. In addition,
CG reviewed the appointment letter and job description for the CPO to determine
overall roles and responsibilities. CG also interviewed the CPO to determine if he was
performing all responsibilities and had sufficient resources to perform his duties. In
addition, CG determined whether the Privacy Office established processes for ensuring
agency compliance with Federal and agency privacy policies. CG also determined
whether the Privacy Office implemented procedures in identifying and securing
information systems containing PII.

3.	 Review of FHFA’s Privacy Monitoring and Compliance

During this audit, CG performed procedures to determine whether the Privacy Office
effectively and efficiently administers FHFA’s privacy program. To accomplish this
objective, CG:

   •	 Determined whether FHFA identified and maintained a complete inventory of
      information systems containing PII and systems requiring PIAs and has
      conducted PIAs for the information systems. The inventory provided lists 26
      systems noted as containing PII.

   •	 For a sample of five information systems, CG reviewed the PIAs and determined
      whether these PIAs have, at a minimum, analyzed and described:
         o	 What information needs to be collected (e.g., nature and source);
         o	 Why the information is being collected (e.g., to determine eligibility);
         o	 Intended use of the information (e.g., to verify data);
         o	 With whom the information will be shared (e.g., another agency for a
             specified programmatic purpose);
         o	 Opportunities individuals have to decline to provide information (e.g.,
             where providing information is voluntary) or to consent to particular uses
             of the information (other than required or authorized uses), and how
             individuals can grant consent; and


                                                27
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


           o	 How the information will be secured (e.g., administrative and technological
              controls).

   •	 CG reviewed PIAs and related documentation for the following systems:
        o	 Examiner Workstation,
        o	 Web-TA,
        o	 HSPD-12 PIV,
        o	 e-OPF, and
        o	 Litigation Support System.

   •	 In addition, CG performed procedures to determine whether a SORN was
      required and if required, whether one was published. CG reviewed FHFA’s
      publication of SORNs in the Federal Register and verified that they contain only
      information about individuals that was “relevant and necessary” to accomplish
      FHFA’s mission. In addition, CG determined whether SORNs have been
      updated to reflect the Agency’s current systems of records.

   •	 Furthermore, consistent with guidance issued by OMB in 2007 related to privacy
      protection (OMB Memorandum M-07-16), CG reviewed procedures implemented
      by FHFA to ensure:

           o	 Privacy was adequately protected and FHFA management has
              implemented breach notification policies;
           o	 Procedures were in place to reduce the use of SSNs;
           o	 Policies existed to notify external agencies about privacy breaches; and
           o	 FHFA has implemented policies for consequences and accountability for
              privacy violation.

4.	 Privacy Vulnerability Analysis

CG performed a thorough review and analysis of FHFA’s network and its external
website for privacy vulnerabilities in accordance with Section 522. These privacy
vulnerabilities include noncompliance with stated practices, policies and procedures as
well as risks of inadvertent release of information in an identifiable form from the
website of the Agency.

In completing the vulnerability analysis, the first task was to review results from
vulnerability assessments conducted during FY 2011 to determine the scope of the
review and whether any privacy related vulnerabilities were identified as a result of the
assessments. The objective was to determine whether any vulnerabilities were
identified on the FHFA network related to the risk of inadvertent release of information in
an identifiable form from the Agency’s network.

In addition, CG gained a thorough understanding of the FHFA’s documented standards
regarding its system’s handling and tracking of PII. Once the CG team had a thorough
understanding of the agency’s policies as well as its approach to privacy compliance,


                                                28
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


the team worked with the appropriate FHFA personnel to test and document the
application of selected privacy related technical controls from NIST SP 800-53 Rev. 3,
Recommended Security Controls for Federal Information Systems, within FHFA’s
network. Technical controls tested include but were not limited to:

   •	 Access Control
         o	 Access Enforcement – AC -1
         o	 Remote Access – AC-17
   •	 Planning
         o	 Privacy Impact Assessment – PL-5
   •	 System and Communications Protection
         o	 System and Communication Protection Policy and Procedures – SC-1
         o	 Information in Shared Resources - SC-4
         o	 Boundary Protection - SC-7
         o	 Transmission Integrity - SC-8
         o	 Transmission Confidentiality - SC-9
         o	 Public Access Protections - SC-14
         o	 Public Key Infrastructure Certificates - SC-17
   •	 System and Information Integrity
         o	 Software and Information Integrity – SI-7

CG tested to determine if the Agency has implemented encryption on data transmitted
over the agency’s communication infrastructure with emphasis on encryption of systems
containing privacy data. Our testing enabled us to determine if the information
transmitting across the network boundaries is secure and identify any control
weaknesses with respect to PII.

In order to conduct the website testing discussed above CG performed procedures to
determine the following for the website:

   •	 Whether the website was using Secure Socket Layer (SSL) to capture and
      transfer Privacy Act protected user data;
   •	 Whether the appropriate privacy policy and disclosures were posted and
      available for all visitors and users of the website (CG assessed the web privacy
      policies to ensure they have implemented the requirements set forth in OMB
      Memorandum M-03-22, Section III - Privacy Policies on Agency Websites, and
      FHFA Privacy Policies.);
   •	 Whether the website was in compliance with the use of tracking mechanisms;
   •	 Ensure that any personal identifiable information was protected; and
   •	 Whether FHFA has implemented machine readability technology on its public
      website, such as Privacy Preferences Project Protocol (P3P).

5.	 Review of FHFA’s Privacy Awareness and Training

During this task, CG performed procedures to determine whether the Agency has
established privacy training requirements in accordance with Federal and Agency


                                                29
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


guidance. In addition, CG determined whether FHFA has implemented a training
program regarding role based training for individuals responsible for PII.        CG
documented whether specific user roles have been identified by FHFA that require role-
based training.

CG conducted this audit in accordance with GAGAS issued by the Comptroller General
of the United States. Those standards require that audits be planned and performed to
obtain sufficient, appropriate evidence to provide a reasonable basis for findings and
conclusions based on the audit objective. CG believes that the evidence obtained
provides a reasonable basis for the findings and conclusions included herein, based on
the audit objective.

To assist in the audit, CG reviewed prior year reports to identify potential risk areas.
The prior year reports CG reviewed include the FHFA’s FY 2010 Federal Information
Security Act (FISMA) evaluation11 and FY 2009 independent audit report on privacy and
data protection.12 CG also reviewed a Government Accountability Office (GAO) report
on opportunities for improving FHFA’s internal controls and accounting procedures,13
GAO’s report on opportunities for improving information system controls,14 and GAO’s
financial audit report for FHFA’s FY 2009 and FY 2010 financial statements. 15
Additionally, CG reviewed FHFA’s policies, procedures and records and conducted
interviews of FHFA employees and contractor personnel.

A significant deficiency under FISMA is a weakness in an agency's overall information
systems security program or management control structure, or within one or more
information systems, that significantly restricts the capability of the agency to carry out
its mission or compromises the security of its information, information systems,
personnel, or other resources, operations, or assets. In this context, the risk is great
enough that the agency head and outside agencies must be notified and immediate or
near-immediate corrective action must be taken. As required in FISMA (Section 3544(c)
(3)), agencies are to report any significant deficiency in policy, procedure, or practice as
a material weakness in reporting under the Federal Managers’ Financial Integrity Act
and if relating to financial management systems, as an instance of a lack of substantial
compliance under the Federal Financial Management Improvement Act.

CG does not consider the deficiencies noted in this report to be a significant deficiency
under FISMA. However, CG concluded collectively that the deficiencies are significant
in context of the audit objective as defined for performance audits under GAGAS.

11
   Federal Housing Finance Agency Fiscal Year 2010 Independent Auditor’s Federal Information Security
Management Act (FISMA) Report, FHFA Audit Report No. 10-A-03-0TIM, September 30, 2010
12
   FY 2009 Independent Audit Report on Privacy and Data Protection, Audit Report No. 09-A-01-
OCAO/OTIM
13 Management Report: Opportunities for Improvement in the Federal Housing Finance Agency's Internal
Controls and Accounting Procedures, GAO-11-398R, April 29, 2011
14
   Information Security: Opportunities Exist for the Federal Housing Finance Agency to Improve Controls,
GAO-10-528, April 2010
15
   Financial Audit: Federal Housing Finance Agency’s Fiscal Years 2010 and 2009 Financial Statements,
GAO-11-151, November 2010


                                                  30
CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011


According to these standards,16 significance is defined as the relative importance of a
matter within the context in which it is being considered, including quantitative and
qualitative factors. Such factors include the magnitude of the matter in relation to the
subject matter, the relevance of the matter, the needs and interests of an objective third
party with knowledge of the relevant information, and the impact of the matter to the
audited program or activity. Professional judgment assists auditors when evaluating the
significance of matters within the context of the audit objectives.




16
     Paragraph 7.04, Significance in a Performance Audit, GAO-07-731G (07/07), p. 123.


                                                    31
      CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


      Appendix II – Summary of Key Criteria Tested


        Policy Requirement                                                                    Audit Conclusion
1       Sec 522 of the 2005 Appropriations Act
1.a     Assuring that the use of technologies sustain, and do not erode, privacy              Issue noted. See Recommendation #6 and #8.
        protections relating to the use, collection, and disclosure of information in an
        identifiable form
1.b     Assuring that technologies used to collect, use, store, and disclose information in   Issue noted. See Recommendation #9.
        identifiable form allow for continuous auditing of compliance with stated privacy
        policies and practices governing the collection, use and distribution of
        information in the operation of the program
1.c     Assuring that personal information contained in Privacy Act systems of records is     Issue noted. See Recommendation #4 and #5.
        handled in full compliance with fair information practices as defined in the
        Privacy Act of 1974
1.d     Evaluating legislative and regulatory proposals involving collection, use, and        No issues noted.
        disclosure of personal information by the federal government
1.e     Conducting a privacy impact assessment of proposed rules of the department on         Issue noted. See Recommendation #7.
        the privacy of information in an identifiable form, including the type of
        personally identifiable information collected and the number of people affected
1.f     Preparing a report to Congress on an annual basis on activities of the                No issues noted.
        Department that affect privacy, including complaints of privacy violations,
        implementations of section 552a of title 5, 11 United States Code, internal
        controls and other relevant matters
1.g     Ensuring that the Department protects information in an identifiable form and         Issue noted. See Recommendation #9.
        information systems from unauthorized access, use, disclosure, disruption,
        modification, or destruction
1.h     Training and educating employees on privacy and data protection policies to           Issue noted. See Recommendation #1, #2, and #3.
        promote awareness of and compliance with established privacy and data
        protection policies
1.i     Each agency shall prepare a written report of its use of information in an            Issue noted. See Finding #1.
        identifiable form, along with its privacy and data protection policies and
        procedures and record it with the Inspector General of the agency to serve as a
        benchmark for the agency



                                                                             32
      CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


        Policy Requirement                                                                  Audit Conclusion
2       OMB M-07-16
2.a     Review and Reduce the volume of PII                                                 No issues noted.
2.b     Reduce the Use of Social Security Numbers                                           No issues noted.
2.c     Encrypt all data on mobile computers/devices carrying agency data unless the        No issues noted.
        data is determined not to be sensitive, in writing, by your Deputy Secretary or a
        senior-level individual he/she may designate in writing.
2.d     Allow remote access only with two factor authentication where one of the            No issues noted.
        factors is provided by a device separate from the computer gaining access
2.e     Use a “time-out” function for remote access and mobile devices requiring user       No issues noted.
        re-authentication after thirty minutes of inactivity
2.f     Log all computer-readable data extracts from databases holding sensitive            No issues noted.
        information and verify each extract, including whether sensitive data has been
        erased within 90 days or its use is still required
2.g     Implement procedures for detecting, reporting and responding to security            No issues noted.
        incidents
2.h     Rules and consequences policy                                                       No issues noted.
3       OMB M-03-22
3.a     Conduct PIAs for electronic information systems and collections and, in general,    Issue noted. See Recommendation #6 and #8.     PIAs are
        make them publicly available                                                        publicly available.
3.b     Post privacy policies on agency websites used by the public                         No issues noted.
3.c     Translate privacy policies into a standard machine-readable format                  No issues noted.
3.d     Report annually to OMB on compliance with section 208 of the E-Government           No issues noted.
        Act
4       Privacy Act of 1974
4.a     Publication of SORNs                                                             Issue noted. See recommendation #4 and #5.
4.b     Identify each system of records which the agency maintains                       No issues noted.
4.c     Establish reasonable administrative, technical and physical safeguards to assure No issues noted related to administrative and physical
        that records are disclosed only to those who are authorized to have access       safeguards. Issue noted for technical safeguard monitoring.
                                                                                         See recommendation #9.
4.d     Review all agency contracts which provide for the maintenance of systems of No issues noted.
        records by or on behalf of the agency to assure that language is included which
        provide that such systems will be maintained in a manner consistent with the Act
5       NIST 800-122


                                                                           33
  CG’s Independent Audit of FHFA’s Privacy Program and Implementation - 2011
�


      Policy Requirement                                                         Audit Conclusion
5.a   Impact Level Definitions                                                   No issues noted.
5.b   Awareness, Training, and Education                                         Issue noted. See Recommendation #1, #2, #3.
5.c   Security Controls                                                          No issues noted.




                                                                      34
APPENDIX B
FHFA’s Comments to FHFA-OIG’s Draft Report




     Federal Housing Finance Agency Office of Inspector General • AUD-2011-003 • September 30, 2011
                                                  vii
Federal Housing Finance Agency Office of Inspector General • AUD-2011-003 • September 30, 2011
                                             viii
Federal Housing Finance Agency Office of Inspector General • AUD-2011-003 • September 30, 2011
                                              ix
Federal Housing Finance Agency Office of Inspector General • AUD-2011-003 • September 30, 2011
                                              x
APPENDIX C
FHFA-OIG’s Response to FHFA’s Comments

On September 26, 2011, FHFA provided a response (Appendix B) to the draft of this report.
FHFA concurred with all recommendations made and described actions it plans to take or has
taken to address the issues identified in the report (Appendix A). Based on FHFA’s response,
FHFA-OIG considers the actions sufficient to resolve the recommendations. However, the
recommendations will remain open until such time as FHFA-OIG determines that agreed upon
corrective actions are completed and responsive. See Appendix D of this report for a summary
of management’s comments on the recommendations.

With regard to recommendation six, FHFA proposed alternate corrective actions to improve
upon FHFA’s review of four systems—where PIAs were not completed by the system owners—
and other similar systems. FHFA-OIG believes the Agency’s actions—which includes updates
to its Privacy Threshold Analysis and Privacy Impact Guide and PTA form to address “routine
database systems”—meets the intent of the recommendation. Specifically, the PTA form will be
updated to include the following elements:

   •    The system was identified as a routine database systems;
   •    The information collected is non-sensitive PII; and
   •    The PTA meets the requirements of conducting a PIA on simple systems containing
        routine information and limited use and access.




       Federal Housing Finance Agency Office of Inspector General • AUD-2011-003 • September 30, 2011
                                                     xi
APPENDIX D
Summary of Management’s Comments on the Recommendations

This table presents the management response to the recommendations in FHFA-OIG’s report and
the status of the recommendations as of the date of report issuance.


 Rec.       Corrective Action: Taken           Expected           Monetary      Resolved:a     Open or
 No.                or Planned              Completion Date       Benefits      Yes or No      Closedb
  1.      FHFA will draft,                    03/31/2012            $0             Yes          Open
          disseminate, and implement
          a written Privacy Training
          and Implementation
          Approach Plan (Plan).
  2.      As part of the Plan, FHFA            03/31/2012             $0            Yes         Open
          will identify those
          employees or offices that
          would benefit from
          additional job specific or
          role based privacy training
          based on increased
          responsibilities related to
          PII.
  3.      In conjunction with the              05/31/2012             $0            Yes         Open
          described plan actions for
          recommendation 2, FHFA
          will develop and implement
          targeted role based training.
  4.      As part of the Plan, FHFA         Fiscal Year 2012          $0            Yes         Open
          will develop and implement
          training for employees on
          when and why SORNs are
          required and how to draft
          them to meet Privacy Act
          requirements. FHFA’s new
          employee training—which
          includes information
          regarding SORNS—will be
          updated to place greater
          emphasis on the
          requirements of the Privacy
          Act as it relates to systems
          of records. The new training
          will be incorporated into
          new employee and annual
          Privacy Awareness training
          during fiscal year 2012.

        Federal Housing Finance Agency Office of Inspector General • AUD-2011-003 • September 30, 2011
                                                     xii
Rec.       Corrective Action: Taken           Expected           Monetary      Resolved:a     Open or
No.               or Planned               Completion Date       Benefits      Yes or No      Closedb
 5.      Currently, FHFA has a draft         11/30/2011            $0             Yes          Open
         document, Procedure on
         How and When to Draft a
         Privacy Act System of
         Records Notice, which
         addresses when and why
         SORNs are required and
         how to draft one to meet
         Privacy Act requirements.
         The document will be posted
         on the FHFA Info Site and
         will form the basis for
         training employees on
         SORNs.
 6.      FHFA will update its                 01/31/2012             $0            Yes         Open
         Privacy Threshold Analysis
         and Privacy Impact
         Assessment Guide to address
         how routine database
         systems containing routine
         information with limited use
         and access are analyzed.
         Further, FHFA will update
         the PTA form to include a
         section that clearly identifies
         those systems that are
         “routine database systems.”
         The form will require the
         individual completing the
         analysis to indicate an
         analysis was conducted and
         will include the following
         elements: the system was
         identified as a routine
         database system; the
         information collected is non-
         sensitive PII; and the PTA
         meets the requirements of
         conducting a PIA on simple
         systems containing routine
         information and limited use
         and access.
 7.      FHFA will draft agency-              09/28/2012             $0            Yes         Open
         wide guidance on how and
         when privacy impact
         assessments will be

       Federal Housing Finance Agency Office of Inspector General • AUD-2011-003 • September 30, 2011
                                                    xiii
    Rec.       Corrective Action: Taken           Expected           Monetary      Resolved:a     Open or
    No.                or Planned              Completion Date       Benefits      Yes or No      Closedb
             conducted for proposed rules
             of the Agency.
     8.      See response to                      01/31/2012             $0            Yes         Open
             recommendation 6 above.
     9.      FHFA’s CPO will work with            09/28/2012             $0            Yes         Open
             the CISO and system owners
             to draft and implement
             written policies and
             procedures for continuous
             monitoring of information
             systems with PII. FHFA—
             in coordination with all
             FHFA divisions and
             offices—will develop an
             agency-wide process for
             continuous monitoring of
             information systems
             containing PII.

a
 Resolved means – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
corrective action is consistent with the recommendation; (2) Management does not concur with the recommendation,
but alternative action meets the intent of the recommendation; or (3) Management agrees to the FHFA-OIG
monetary benefits, a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
management provides an amount.
b
  Once the FHFA-OIG determines that the agreed-upon corrective actions have been completed and are responsive
to the recommendations, the recommendations can be closed.




           Federal Housing Finance Agency Office of Inspector General • AUD-2011-003 • September 30, 2011
                                                        xiv
ADDITIONAL INFORMATION AND COPIES


For additional copies of this report:

       •   Call the Office of Inspector General (OIG) at: 202-408-2544

       •   Fax your request to: 202-445-2075

       •   Visit the OIG website at: www.fhfaoig.gov



To report alleged fraud, waste, abuse, mismanagement, or any other kind of criminal or
noncriminal misconduct relative to FHFA’s programs or operations:

       •   Call our Hotline at: 1-800-793-7724

       •   Fax us the complaint directly to: 202-445-2075

       •   E-mail us at: oighotline@fhfa.gov

       •   Write to us at: FHFA Office of Inspector General
                           Attn: Office of Investigation – Hotline
                           1625 Eye Street, NW
                           Washington, DC 20006-4001




      Federal Housing Finance Agency Office of Inspector General • AUD-2011-003 • September 30, 2011
                                                   xv
